WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 21-287

Benjamin Caleb Trott

Maryland

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

DDanieliq 5awor

8/30/21
(Type or print) Name Daniel J. Jawor
Date-

[] Mr.

❑ Ms.

D Mrs. 0 Miss

Office of the Attorney General
Address 200 St. Paul Place
City & State Baltimore, Maryland
Zip 21202
Email djawor@oag.state.md.us
Phone 410-576-6422
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Jeffrey M. Ross, Assistant Public Defender
Office of the Public Defender Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, MD 21202

RECEIVED
SEP -8 2021
OFFICE OF THE CLERK
SUPREME COURT, UF

